HHS/OIG-Audit--"Nationwide Audit of Six Ulcer Treatment Drugs Reimbursed Under the Medicaid Prescription Drug Program, (A-06-92-00003)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nationwide Audit of Six Ulcer Treatment Drugs Reimbursed Under the Medicaid
Prescription Drug Program," (A-06-92-00003)
July 27, 1993
Complete
Text of Report is available in PDF format (1.82 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that significant Medicaid savings can be achieved
by limiting reimbursement of six ulcer treatment drugs to the manufacturer's recommended
dosages. We reviewed reimbursement records for 1,600 randomly selected Medicaid
recipients in eight States who received ulcer treatment therapy through at least
1 of 6 ulcer treatment drugs. We computed a potential cost savings of $116,133
for Calendar Year 1990 for 606 recipients in our sample that received dosages in
excess of the manufacturers' recommendations. We estimate that national savings
could total about $112 million annually. We recommended that the Health Care Financing
Administration encourage States to establish procedures that limit payment for
the six ulcer treatment drugs to the dosages recommended by the manufacturers.